r

r
No.

IN THE
SUPREME COURT OF THE UNITED STATES

— PETITIONER

RODANE LAMB

(Your Name)

VS.
UNITED STATES OF AMERICA

— RESPONDENT(S)

PROOF OF SERVICE

j do swear or declare that on this date,
I, RODANE LAMB
November 2
j20 20 . as required by Supreme Court Rule 29 I have served
the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding or
that party's counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
Solicitor General of the U.S • / Room 5614, Department of Justice
950 Pennsylvania Avenue, N.W •

t

Washington, DC 20530-0001; and

Clerk of the.Court, 1.First Street, N.E., Washington, DC 20543
Supreme Court of the United States.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Nov. 2

. 20 20

1

